                                                       SENSITIVE BUT UNCLASSIFIED


                                                United States Department of State

                                             and the Broadcasting Board of Governors

                                                    Office of Inspector General

Office of Inspector General


                                                         Office of Audits



                                   Evaluation of the United States Section,

                               International Boundary and Water Commission,

                                        Information Security Program


                                            Report Number AUD/IT-12-16, November 2011




                                                                 Important Notice

                                This report is intended solely for the official use of the Department of State of the
                                Broadcasting Board of Governors, or any agency or organization receiving a copy
                                directly from the Office of Inspector General. No secondary distribution may be
                                made, in whole or in part, outside the Department of State or the Broadcasting Board
                                of Governors, by them or by other agencies of organizations, without prior
                                authorization by the Inspector General. Public availability of the document will be
                                determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                                disclosure of this report may result in criminal, civil, or administrative penalties.



                                                      SENSITIVE BUT UNCLASSIFIED

                                                                UniteJ States Department of State
                                                                and the Broadcasting Board of Governors

                                                                Office of Inspector General




                                              PREFACE

        This report is being transmitted pursuant to the lnspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

      In accordance with the Federal Information Security Management Act 0[2002 (FISMA),
DIG performed a review of the United States Section, lnternational Boundary and Water
Commission Information Security Program for FY 2011 . The report is based on interviews with
employees and officials of the United States Section, International Boundary and Water
Commission headquarters and field offices, direct observation, and a review of applicable
documents.

        OIG identified areas in which improvements could be made, including the system
 inventory, risk management program, configuration management, security awareness and role·
 based           plans of actions and milestones, remote access, continuous monitoring,
                        ov'en,ight of contractor         security capital planning,_
(b) (5)

        The recommendations contained in the report were developed on the basis of the best
 knowledge available and were discussed in draft fonn with those individuals responsible for
 implementation. OIG's analysis of management's response to the recommendations has been
 incorporated into the report. OIG trusts that this report will result in more effective, efficient,
 andlor economical operations.

         I express my appreciation to all of the individuals who contributed to the preparation of
 this report.




                                        Harold W. Geisel 

                                        Deputy Inspector General 

                         SENSITIVE BUT UNCLASSIFIED





Acronyms
CM         configuration management
COOP       Continuity of Operations
FISMA      Federal Information Security Management Act
GSS        General Support System
IBWC       United States Section, International Boundary and Water Commission
IMD        Information Management Division
IT         information technology
NIST       National Institute of Standards and Technology
OIG        Office of Inspector General
OMB        Office of Management and Budget
POA&M      Plan of Action and Milestones

SP         Special Publication
SSP        system security plan




                         SENSITIVE BUT UNCLASSIFIED

                                           SENSITIVE BUT UNCLASSIFIED



                                                       Table of Contents



Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................4

Results of Evaluation .......................................................................................................................6
       A. System Inventory ...........................................................................................................6
       B. Risk Management Program ............................................................................................7
       C. Configuration Management............................................................................................9
       D. Security Training..........................................................................................................10
       E. Plan of Action and Milestones .....................................................................................12
       F. Remote Access..............................................................................................................13 

       G. Continuous Monitoring ................................................................................................14 

       H. Contingency Planning ..................................................................................................17 

       I. Oversight of Contractor System ...................................................................................19 

       J. Security Capital Planning .............................................................................................20 

                                    .......................................................................................................21 

                                                                   ........................................................................22 


List of Recommendations ..............................................................................................................25 


Appendices
      A. Objectives, Scope, and Methodology ...........................................................................28 

      B. Followup of Recommendations From the FY2010 Federal Information Security

      Management Act Report ....................................................................................................29 

          (b) (5)
                             (b) (6) (b) (6)       ............................................................................................... 30 

          (b) (5)
                              ..............................................................................................................34 

           E. International Boundary and Water Commission Response ...........................................39 


Major Contributors to This Report ................................................................................................49 





                                           SENSITIVE BUT UNCLASSIFIED

                                      SENSITIVE BUT UNCLASSIFIED



                                          Executive Summary

        In accordance with the Federal Information Security Management Act (FISMA) of
2002, 1 the Department of State, Office of Inspector General (OIG), performed an independent
evaluation of the United States Section, International Boundary and Water Commission (IBWC),
information security program and practices to determine compliance with Federal laws,
regulations, and standards established by FISMA, the Office of Management and Budget
(OMB), and the National Institute of Standards and Technology (NIST). Additionally, the
results are designed to assist OIG in providing responses to OMB Memorandum M-11-33, FY
2011 Reporting Instructions for the Federal Information Security Management Act and Agency
Privacy Management, dated September 14, 2011.

        OIG reviewed remedial actions taken by IBWC to address the FY 2010 reported FISMA
control weaknesses identified in the independent public accounting firm’s FY 2010 report Audit
of the International Boundary and Water Commission Federal Information Security
Management Act. The statuses of the recommendations from the FY 2010 report are presented
in Appendix B.

        Overall, OIG found that IBWC had implemented an information security program but
identified weaknesses that, if exploited, could significantly impact the information security
program controls and expose IBWC to security breaches. The weakened security controls could
adversely affect the confidentiality, integrity, and availability of IBWC information and
information systems. To improve the information security program and to bring the program
into compliance with FISMA, OMB, and NIST requirements, IBWC needs to address the control
weaknesses identified.

       A. System Inventory

           IBWC has not implemented a process or procedure to update and manage its information
           technology (IT) assets. Although IBWC performed an inventory of its hardware and
           systems during FY 2011, it did not fully account for all assets. Without a process to
           properly identify, document, and maintain an inventory of systems, IBWC may not have
           an accurate accounting of all IT assets and related system interfaces and underlying
           support systems.

       B. Risk Management Program

           IBWC’s risk management program for information security needs improvement at the
           organization and system levels. At the organizational level, IBWC had not implemented
           a risk management framework and information security policies and procedures that
           describe the roles and responsibilities of key participants. In addition, there is no
           governance structure in place to address risk within IBWC. Further, IBWC had not



1
    Pub. L. No. 107-347, title III.

                                                  1

                                      SENSITIVE BUT UNCLASSIFIED

                              SENSITIVE BUT UNCLASSIFIED


        developed an IT strategic plan or enterprise architecture that shows the IT goals for the
        organization or links the strategic goals and objectives to the defined business functions.

        At the system level, IBWC had not completed security assessment and authorization
        (formerly certification and accreditation) of its Supervisory Control and Data Acquisition
        (SCADA) systems. IBWC was not aware of the requirements to complete the security
        assessment and authorization process for the SCADA systems. OIG found that only one
        of two systems was certified and accredited by year end. Additionally, the security
        authorization package for the general support system (GSS) was not reassessed after a
        significant change. These conditions weaken IBWC’s risk management framework to
        assess, respond to, and monitor information security risk.

     C. Configuration Management

        IBWC had not implemented an effective patch management process to evaluate patches
        for applicability, process of installation, monitoring, and periodic review of the patch
        statuses on the systems. Without detailed procedures that govern the performance of the
        configuration management processes, IBWC may not be able to manage effectively the
        IT security program, which may lead to the introduction of security weaknesses and
        inconsistent performance.

     D. Security Training

        Although the IBWC security awareness training program requires all personnel to
        complete annual security awareness training and users with significant security
        responsibilities to complete specialized training, OIG found that IBWC employees had
        not completed their general security awareness training and employees who have
        significant security responsibilities had not completed their specialized training.

     E. Plan of Action and Milestones

        IBWC had not effectively implemented a Plan of Action and Milestones (POA&M)
        process. OIG found that IBWC’s POA&M policy and procedures had not been formally
        adopted by management. In addition, IBWC’s POA&Ms did not identify the estimated
        resource requirements and corrective action plans to close the POA&M deficiencies.

     F. Remote Access

        IBWC had not developed and implemented a remote access policy and procedure to
        comply with NIST requirements. Without proper policies and procedures, individuals
        may introduce vulnerabilities into the IBWC network.

G.      Continuous Monitoring

        IBWC had not developed a means to implement continuous monitoring of its IT systems.
        Specifically, IBWC had not performed routine security assessments of its systems or
        periodic vulnerability scans. Without periodic reviews or the performance of risk-based

                                                 2

                              SENSITIVE BUT UNCLASSIFIED

                                     SENSITIVE BUT UNCLASSIFIED


               security assessments, new threats and vulnerabilities may not be identified and mitigated
               in a timely manner.

          H. Contingency Planning

               IBWC’s Continuity of Operations (COOP) does not comply with NIST Special
               Publication (SP) 800-34. 2 OIG found that the COOP for IBWC’s GSS had not been
               updated or tested after a significant change. Lack of an updated contingency plan may
               prevent IBWC from accessing critical information and resources and resuming business
               functions in case of an extended outage and/or disaster.

          I. Oversight of Contractor System

               IBWC had not implemented an effective oversight program of its contractor system. OIG
               found that IBWC officials did not have adequate control over the IT functions at the San
               Diego (CA) waste treatment plant. In addition, IT assets are purchased and maintained
               by the contractor in support of the operations in San Diego without IBWC Information
               Management Division (IMD) review and approval.

          J. Security Capital Planning

               Information security is not integrated into IBWC’s Capital Planning and Investment
               Control process. IBWC did not provide OMB with a detailed explanation for the major
               investment related to its IT assets. Inadequate planning increases the risk that requests
               for funding investments will not receive proper consideration.
     (b) (5)




(b) (5)


                                                        3


                                     SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED





        OIG made 21 recommendations, including the three recommendations included in OIG’s
August 26, 2011, Outline for Action that pertained to personnel security and physical and
environmental protection (Findings K and L, respectively). The other significant security
deficiencies requiring immediate attention are in the risk management program (Finding B),
security configuration management (Finding C), plans of action and milestones (Finding E),
continuous monitoring (Finding G), and oversight of the contractor system (Finding I).

       IBWC concurred with all the recommendations. Based on the information provided, OIG
considers all 21 recommendations resolved, pending further action. IBWC’s responses and
OIG’s replies are presented after each recommendation.

                                                 Background
        IBWC is an international organization created in 1889 by the Governments of the United
States and Mexico to administer the boundary and water rights treaties and agreements between
the two countries.

         The entity was created as the International Boundary Commission by the Convention of
1889 and given its current name under the Treaty of 1944. 4 IBWC consists of the United States
      3

Section and the Mexican Section, which have their headquarters in the adjoining cities of El Paso
and Ciudad Juárez, Chihuahua, respectively. Although IBWC is an independent international
entity, the United States Section takes direction from the Department of State on matters related
to foreign policy. The Mexican Section is a unit in the Mexican Ministry of Foreign Affairs.

        IBWC is charged through a series of treaties and agreements with the application,
regulation, and exercise of the provisions of such treaties and agreements for the solution of
water and boundary issues along the 1,954-mile border between the two countries. The United
States Section of IBWC operates under the provisions of 22 U.S.C. 277. 5 The mission of the
United States Section working jointly with the Mexican Section is as follows:

    •	 Distribute the waters of the boundary rivers between the two countries.
    •	 Operate international flood control along the boundary rivers.
    •	 Operate the international reservoirs for conservation and regulation of Rio Grande waters
       for the two countries.

3
  The Convention of 1889 was to avoid the difficulties occasioned by reason of the changes that take place in the 

beds of the Rio Grande and Colorado River, U.S.-Mex., March 1, 1889, 26 Stat. 1512 (extended indefinitely by

Article two of treaty signed Feb. 3, 1944.) (59 Stat. 1219)).

4
  Treaty of 1944 relates to utilization of waters of the Colorado and Tijuana Rivers and of the Rio Grande, and

supplementary protocol, U.S.-Mexico, Feb. 3, 1944. (59 Stat. 1219).

5
  22 U.S.C. § 277, “International Boundary Commission, United States and Mexico; study of boundary waters.”


                                                          4

                                   SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


    •	   Improve the quality of water of international rivers.
    •	   Resolve border sanitation issues.
    •	   Develop hydroelectric power.
    •	   Establish the boundary in the area l imitrophe to (bordering) the Rio Grande.
    •	   Demarcate the land boundary.

    The Federal Information Security Management Act of 2002 (FISMA) was enacted into law
as Title III, Public Law Number 107-347 on December 17, 2002. Key requirements of FISMA
are as follows:

    •	 The establishment of an agency-wide information security program to provide
       information security for the information and information systems that support the
       operations and assets of the agency, including those provided or managed by another
       agency, contractor, or other source.
    •	 An annual independent evaluation of the agency’s information security programs and
       practices.
    •	 An assessment of compliance with FISMA requirements.

        FISMA recognized the importance of information security to the economic and national
security interests of the United States. FISMA requires each Federal agency to develop,
document, and implement an agency-wide program to provide information security for the
information systems that support the operations and assets of the agency, including information
and information systems provided or managed by another agency, contractor, or source. FISMA
provides a comprehensive framework for establishing and ensuring the effectiveness of
management, operational, and technical controls over IT that supports Federal operations and
assets, and it provides a mechanism for improved oversight of Federal agency information
security programs.

        FISMA assigns specific responsibilities to Federal agencies, NIST, OMB, and the
Department of Homeland Security (DHS) to strengthen information system security. In
particular, FISMA requires the head of each agency to implement policies and procedures to cost
effectively reduce IT security risks to an acceptable level. To ensure the adequacy and
effectiveness of information system controls, FISMA requires agency program officials, chief
information officers, chief information security officers, senior agency officials for privacy, and
inspectors general to conduct annual reviews of the agency’s information security program and
report the results to DHS.

       On an annual basis, OMB provides guidance with reporting categories and questions for
meeting the current year’s reporting requirements. 6 OMB uses this data to assist in its oversight
responsibilities and to prepare its annual report to Congress on agency compliance with FISMA.




6
 OMB Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management
Act and Agency Privacy Management, dated Sept. 14, 2011.

                                                   5

                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


                                      Results of Evaluation
        Overall, OIG found that IBWC had implemented an information security program;
however, OIG identified weaknesses that, if exploited, could significantly impact the information
security program controls and expose IBWC to security breaches. The weakened security
controls could also adversely affect the confidentiality, integrity, and availability of information
and information systems. To improve the information security program and to bring the program
into compliance with FISMA, OMB, and NIST requirements, IBWC needs to address the control
weaknesses described.

A. System Inventory
        IBWC had not implemented an inventory management process and procedures to update
and manage its IT assets. Although IBWC performed an inventory of its hardware and systems
during FY 2011, it did not fully account for all assets. OIG found that the IBWC inventory listed
only components associated with the GSS and did not include all IT assets. Specifically, OIG
identified components in the server room and in the wiring rooms of the first and third floors at
the headquarters in El Paso, and at the San Diego field office, that were not recorded in the
inventory. In addition, the listing did not include the SCADA systems operated at the IBWC
field offices in San Diego and at Falcon and Amistad (TX). 7

        FISMA requires the heads of each agency to develop and maintain an inventory of major
information systems operated by or under the agency’s control and to identify information
systems in an inventory, to include identifying the interfaces between each system and other
systems or networks and including those information systems not operated by or under the
control of the agency. FISMA further requires the inventory to be updated at least annually and
to be used to support information resources management.

       Without a system inventory management process for all IT assets, including the SCADA
systems, IBWC will not have an accurate accounting of all related system interfaces or
underlying support systems and will not be able to properly identify and mitigate security risks.
As a result, critical management processes such as strategic planning, budgeting, system
administration, and resource management may be adversely affected.

        Recommendation 1. OIG recommends that the Chief Information Officer ensure that all
        assets are accounted for in the inventory system and develop a process that updates, not
        less than annually, the International Boundary and Water Commission’s (IBWC) system
        inventory when changes are made to those information systems operated by or under the
        control of IBWC or by third-party contractors or agencies on behalf of IBWC, as required
        by the Federal Information Security Management Act.




7
 The SCADA system in San Diego is contractor owned and operated. The SCADA systems in Falcon and Amistad
are owned and operated by IBWC. OIG performed fieldwork at the office in San Diego.

                                                   6

                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


        Management Response: IBWC concurred with the recommendation, stating that IMD
        “has initiated the development of its own IT asset inventory, in addition to the one
        maintained “ in the Department’s ILMS, “in order to accurately account for all IT assets
        that make up the [GSS] and existing SCADA systems identified” in San Diego, Nogales
        (AZ), Amistad, and Falcon.

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that IBWC has
        implemented a process to accurately account for all IT assets in the inventory system.

B.	 Risk Management Program
        IBWC’s risk management program for information security needs improvement at the
organization and system levels. At the organizational and system level, IBWC had not
implemented a risk management framework and information security policies and procedures
that describe the roles and responsibilities of key participants. As such, OIG could not review
the risk management framework and determine how IBWC manages information security risk.

       In addition, IBWC did not have a governance structure in place to address risk within the
organization and had not developed an IT strategic plan or enterprise architecture that shows the
IT goals for the organization or links the strategic goals and objectives to the defined business
functions. Further, because the risk management strategy had not been implemented at the
organizational level, communication of operations at the system level are negatively affected,
along with business decisions such as funding allocation, because management was not fully
aware of the security vulnerabilities that exist.

       At the information system level, OIG found deficiencies in the security assessment and
authorization (formerly certification and accreditation) documentation as follows:

    •	 For the SCADA systems, IBWC had not completed the security assessment and
       authorization package, as required by NIST SP 800-82 8 and NIST SP 800-53, Revision
       3. 9
    •	 For the GSS SSP, only one of two systems had been assessed and authorized by year end.
       The CIO certified the GSS SSP in April 2007. However, several changes have been
       made to the GSS since that time, including a change to the designated approving
       authority, the addition of a COOP site, and a change to the transportation mode for
       information.
    •	 For the GSS SSP, which documents security controls for the system, the security baseline
       controls were not documented in compliance with NIST SP 800-53, Revision 3, and the
       security assessment report supporting the independent assessor’s evaluation of
       management, operational, and technical controls was outdated. IBWC also did not
       review and document test results of annual subset assessments.

8
  NIST SP 800-82, Guide to Industrial Control Systems (ICS) Security,” June 2011.

9
  NIST SP 800-53, rev. 3, Recommended Security Controls for Information Systems and Organizations, Aug. 2009

(last updated May 2010).


                                                      7

                                 SENSITIVE BUT UNCLASSIFIED

                                SENSITIVE BUT UNCLASSIFIED



     •	 For the authority to operate, which proves that an authorizing official has accepted the
        identified risk, OIG found that the GSS did not have a full security assessment and
        authorization performed after significant changes had been made to the network
        environment. In addition, the GSS authority to operate was not valid because of a change
        in the designated approving authority.

       IBWC did not properly follow guidelines contained in NIST SP 800-37, Revision 1, 10 for
properly managing the documentation in the security assessment and authorization packages. An
IBWC official stated that IBWC was unaware of the requirement to complete the security
assessments and authorization packages for the SCADA systems and the requirement to update
the GSS SSP after significant changes were made. These conditions weaken IBWC’s risk
management framework to assess, respond to, and monitor information security risk.

        Recommendation 2: OIG recommends that the Chief Information Officer improve the
        risk management strategy at the organizational level for assessing, responding to, and
        monitoring information security risk, as required in National Institute of Standards and
        Technology Special Publication 800-37, Revision 1.

        Management Response: IBWC concurred with the recommendation, stating that the
        CIO “has initiated steps necessary to bring about an effective risk management
        framework and policies and procedures in accordance with NIST SP 800-37 Revision 1.”
        IBWC also stated that the IMD “has begun updating the existing System Security Plan to
        include all current security baseline controls, changes in the GSS and identified SCADA
        systems.” In addition, according to IBWC, the IMD “will prepare a new security
        assessment and authorization package to apply for and achieve an Authority to Operate
        designation from the new Designated Authority in FY12.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that IBWC has
        implemented a risk management strategy at the organizational level for assessing,
        responding to, and monitoring information security risk.

        Recommendation 3. OIG recommends that the Chief Information Officer:
           •	 Develop the security assessment and authorization packages for the Supervisory
              Control and Data Acquisition systems, as required by National Institute of
              Standards and Technology Special Publication (NIST SP) 800-82 and NIST SP
              800-53, Revision 3.
           •	 Improve existing procedures to ensure security assessment and authorization
              packages are updated every 3 years or when a significant change occurs, as
              required by NIST SP 800-37, Revision 1.




10
  NIST SP 800-37, rev.1, Guide for Applying the Risk Management Framework to Federal Information Systems,
Feb. 2010.

                                                     8

                                SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED



               •	 Improve existing procedures to ensure system security plans and security
                  assessment reports are updated as required to comply with the security baseline
                  controls in NIST SP 800-53, Revision 3.
               •	 Perform annual security assessments of a subset of a system’s security controls, as
                  required by NIST SP 800-37, Revision 1.

           Management Response: IBWC concurred with the recommendation, stating that the
           CIO “will take all necessary action to comply with all items under this recommendation
           and to comply with NIST SP 800-53, Revision 3, NIST SP 800-37, Revision 1, and SP
           800-82.”

           OIG Analysis: OIG considers the recommendation resolved. This recommendation can
           be closed when OIG reviews and accepts documentation showing that IBWC has
           implemented all items under this recommendation and has taken actions to comply with
           the special publications specified.

C.	 Configuration Management

        IBWC had not implemented effective configuration management (CM) standards and
procedures for its IT environment. Although IBWC had CM standards and procedures in place,
it did not account for the patch management process to evaluate patches for applicability,
installation process, monitoring, and periodic review of the patch status on the systems. (b) (5)


        According to NIST SP 800-53, Revision 3, security controls are the management,
operational, and technical safeguards or countermeasures prescribed for an information system to
protect the confidentiality, integrity, and availability of the system and its information.

           NIST SP 800-53, Revision 3, states:

            The organization develops, disseminates, and reviews/updates [at an

           organizational-defined frequency]: 


                   a.	 A formal, documented configuration management policy that
                       addresses purpose, scope, roles, responsibilities, management
                       commitment, coordination among organizational entities, and
                       compliance; and

                   b.	 Formal, documented procedures to facilitate the
                       implementation of the configuration management policy and
                       associated configuration management controls.” 11



11
     CM-1, “Configuration Management Policy and Procedures.”

                                                       9

                                   SENSITIVE BUT UNCLASSIFIED

                              SENSITIVE BUT UNCLASSIFIED


        An IBWC official stated that the CM standards and procedures are currently being
“revamped” but that the draft CM policy and procedures are currently being utilized. Without
detailed procedures that govern the performance of the CM processes, IBWC will not be able to
effectively manage the IT security program, which could lead to the introduction of security
weaknesses and inconsistent performance.

       Recommendation 4. OIG recommends the Chief Information Officer develop and
       implement security configuration management procedures and periodically assess
       compliance with the implemented procedures, as required by National Institute of
       Standards and Technology Special Publication 800-53, Revision 3.

       Management Response: IBWC concurred with the recommendation, stating that the
       “draft Configuration Management policy and procedure is currently being reviewed by
       management for approval by the Commissioner.” IBWC further stated, “ With the
       acquisition of new security appliances purchased in FY11, the IMD will be able to
       evaluate patches for applicability, install, monitor and review patch status on all systems
       in a much more efficient and effective way.”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and accepts documentation showing that IBWC has
       implemented security configuration management procedures and periodically assessed
       compliance with the implemented procedures.

       Recommendation 5. OIG recommends that the Chief Information Officer develop
       procedures for the oversight of all systems and hardware that are part of the International
       Boundary and Water Commission operations, as required by National Institute of
       Standards and Technology Special Publication 800-53, Revision 3.

       Management Response: IBWC concurred with the recommendation, stating that the
       IMD “has acquired hardware and software that will provide the necessary tools to
       establish an effective continuous monitoring program.”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and accepts documentation showing that IBWC has
       implemented procedures for the oversight of all systems and hardware that are part of
       IBWC operations.

D. Security Training
        Although IBWC’s security awareness training program requires all personnel to complete
annual security awareness training and users with significant security responsibilities to complete
specialized training, OIG found that IBWC employees had not completed their general security
awareness training and employees with significant security responsibilities had not completed
their specialized training.



                                                10

                              SENSITIVE BUT UNCLASSIFIED

                                  SENSITIVE BUT UNCLASSIFIED


        OMB Circular No. A-130 12 mandates that agencies provide periodic computer security
awareness training to all users as well as specialized training for individuals who have significant
security responsibilities. Training ensures that all users are knowledgeable about the rules of the
system. However, IBWC officials did not enforce compliance with the security awareness
training policy. An IBWC official stated that compliance with training had not been strictly
enforced but that IBWC intends to train all employees by the end of the fiscal year.

        NIST SP 800-50 13 states, “at a minimum, the entire workforce should be exposed to
awareness material annually. A continuous awareness program, using various methods of
delivery throughout the year, can be very effective. Security training for groups of users with
significant security responsibility (e.g., system and network administrators, managers, security
officers) should be incorporated into ongoing functional training as needed. the organization
ensures all users (including managers and senior executives) are exposed to basic information
system security awareness materials before authorizing access to the system and thereafter (i.e. at
least annually). NIST SP 800-53, Revision 3, 14 states, “[T]he organization employs a formal
sanctions process for personnel failing to comply with established information security policies
and procedures.”

       Without the completion of initial and annual security awareness training, personnel may
be unaware of new risks that may compromise the confidentiality, integrity, and availability of
data. As a result, personnel may be unable to recognize and respond appropriately to potential
and actual security concerns.

        Recommendation 6. OIG recommends that the Chief Information Officer enforce the
        security awareness training policy requiring all personnel to attend initial and refresher
        security awareness training and enforce consequences of noncompliance for personnel
        who do not successfully complete the security awareness training, as required by National
        Institute of Standards and Technology Special Publication 800-53, Revision 3, and Office
        of Management and Budget Circular No. A-130.

        Management Response: IBWC concurred with the recommendation, stating that the
        IMD had “conducted five IT Security training classes immediately after the OIG visit in
        August resulting in 235 employees out of 272 completing their annual IT Security
        training.” IBWC also stated that the IMD “has also acquired a cloud based training
        system that will allow for a much more efficient method to provide IT Security training to
        IBWC personnel.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that IBWC has
        implemented security awareness training policy requiring all personnel to attend initial

12
   OMB Circular No. A-130, revised, Management of Federal Information Resources, app. III, “Security of Federal

Automated Information Resources.”

13
   NIST SP 800-50, Building an Information Technology Security Awareness and Training Program, pg.20, F/N13,

Oct. 2003.

14
   NIST SP 800-53, rev. 3, PS-8 Personnel Sanctions, Aug. 2009.


                                                      11

                                  SENSITIVE BUT UNCLASSIFIED

                                SENSITIVE BUT UNCLASSIFIED


        and refresher security awareness training and enforce consequences of noncompliance for
        personnel who do not successfully complete the training.

        Recommendation 7. OIG recommends that the Chief Information Officer enforce the
        security awareness training requirement for those personnel with significant security
        responsibilities, as required by National Institute of Standards and Technology Special
        Publication 800-53, Revision 3, and Office of Management and Budget Circular No. A-
        130.

        Management Response: IBWC concurred with the recommendation, stating, “Of the
        eight employees within the agency with significant security responsibilities, five attended
        training resulting in approximately 63% of employees with significant security
        responsibilities meeting this requirement. The remaining employees are scheduled to
        obtain the required in FY12.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that IBWC has
        implemented the security awareness training requirement for those personnel with
        significant security responsibilities.

E.	 Plan of Action and Milestones
       IBWC had not effectively implemented a POA&M process. The implementation of a
POA&M process is important to assess the state of the GSS security posture and to aid in
oversight of IT investments. Specifically, OIG found the following deficiencies:

     •	 The POA&Ms did not address findings identified during previous FISMA reviews.
     •	 The POA&Ms were not properly updated and provided to the CIO on a quarterly basis.
     •	 The POA&Ms did not contain all elements required by OMB, including details of the
        estimated resource requirements and corrective action plans to close the POA&M
        deficiencies. Also, changes to milestones for actions had not been completed.

        OMB Memorandum M-08-21 15 states:

        POA&Ms must . . . include all security weaknesses found during any other review
        done by, for, or on behalf of the agency, including [Government Accountability
        Office] audits, financial system audits, and critical infrastructure vulnerability
        assessments. These plans should be the authoritative agency-wide management
        tool, inclusive of all evaluations.

        OMB Memorandum M-08-21 16 further states:


15
   OMB Memorandum M-08-21, FY 2008 Reporting Instructions for the Federal Information Security Management

Act and Agency Privacy Management, July 14, 2008.

16
   Ibid.


                                                   12

                                SENSITIVE BUT UNCLASSIFIED

                               SENSITIVE BUT UNCLASSIFIED


        A [POA&M], also referred to as a corrective action plan, is a tool that identifies
        tasks that need to be accomplished. It details resources required to accomplish the
        elements of the plan, any milestones in meeting the task, and scheduled
        completion dates for the milestones. The purpose of the POA&M is to assist
        agencies in identifying, assessing, prioritizing, and monitoring the progress of
        corrective efforts for security weaknesses found in programs and systems.

    OMB Memorandum M-02-01 17 provides the required elements and procedures for the
POA&M process.

         An IBWC official stated that the policy and procedures had not been approved by
management and were still in draft form. Without periodic updates and reviews of POA&M
activities, IBWC management may be unaware of the statuses of corrective actions. As a result,
delays in the implementation of corrective actions may not be appropriately identified and
resolved in a timely manner.

        Recommendation 8. OIG recommends the Chief Information Officer implement a Plan
        of Action and Milestones (POA&M) process and review the quarterly POA&M reports
        and all elements of the POA&M, as required by Office of Management and Budget
        Memorandums M-02-01and M-08-21.

        Management Response: IBWC concurred with the recommendation, stating that the
        draft POA&M “policy and procedure, which includes controls to methodically address
        findings and facilitate review by the CIO on a quarterly basis is currently being reviewed
        by management for approval by the Commissioner.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that IBWC has
        implemented a POA&M process and has reviewed the quarterly POA&M reports and all
        elements of the POA&M.

F. Remote Access
        IBWC had not developed and implemented a remote access policy and procedure to
comply with NIST requirements. NIST SP 800-53, Revision 3, states that the organization
documents, monitors, and controls all methods of remote access (for example, dial-up and the
Internet) to the information system, including remote access for privileged functions.
Appropriate organization officials authorize each remote access method for the information
system and authorize only the necessary users for each access method.

       An IBWC official stated that the access control (AC) policy and procedure document
contains procedures for remote access. However, OIG noted that the AC procedure did not
adequately address the remote access process. Without proper policies and procedures that

17
 OMB Memorandum M-02-01, Guidance for Preparing and Submitting Security Plans of Action and Milestones,
Oct.17, 2001.

                                                   13

                               SENSITIVE BUT UNCLASSIFIED

                                  SENSITIVE BUT UNCLASSIFIED


require documentation of all requests and authorizations of system access, individuals may
introduce vulnerabilities into IBWC’s network.

        Recommendation 9. OIG recommends that the Chief Information Officer develop a
        remote access policy and procedure, as required by National Institute of Standards and
        Technology Special Publication 800-53, Revision 3.

        Management Response: IBWC concurred with the recommendation, stating that the
        IMD “is currently updating the existing Access Control policy and procedure to more
        adequately document the remote access process.”

        OIG Analysis: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts documentation showing that IBWC has
        developed a remote access policy and procedure.

G. Continuous Monitoring
        IBWC had not developed a means to implement continuous monitoring of its information
technology systems. OIG found that although IBWC had assessed some of the controls of the
operating environment, these were manual controls and IBWC had not performed automated
routine security assessments of its system environment using the framework outlined in NIST SP
800-53A. 18 In November 2009, IBWC performed the security test and evaluation to verify
compliance with its security policy guidelines and to evaluate the effectiveness of the security
controls against anticipated threats. In addition, IBWC ensured that a comprehensive testing
activity was identified to cover all appropriate security requirements, involved all necessary
individuals, and ultimately provided the information needed to support the security assessment
and authorization (formerly the certification and accreditation) process. However, IBWC had
not expanded the process to include the periodic re-performance of vulnerability scans for its
systems or automated routine performance of such scans on its enterprise network.

        NIST SP 800-53, Revision 3, 19 states that the organization “scans for vulnerabilities in
the information system [in accordance with organization defined] and when new vulnerabilities
potentially affecting the system/application are identified and reported.

        NIST SP 800-53, Revision 3, 20 states:

        The organization subsequently initiates specific follow-on actions as part of a
        comprehensive continuous monitoring program. The continuous monitoring
        program includes an ongoing assessment of security control effectiveness to
        determine if there is a need to modify or update the current deployed set of
        security controls based on changes in the information system or its environment
18
   NIST SP 800-53A, Guide for Assessing the Security Controls in Federal Information Systems, RA-5 Vulnerability
Scanning, July 2008.

19
   NIST SP 800-53, rev. 3, Monitoring Security Controls, pg. 27, Aug. 2009.

20
   Ibid.


                                                      14

                                  SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED


of operation (RMF Step 6). In particular, the organization revisits on a regular
basis, the risk management activities described in the Risk Management
Framework. In addition to the ongoing activities associated with the
implementation of the Risk Management Framework, there are certain events
which can trigger the immediate need to assess the security state of the
information system and if required, modify or update the current security controls.
These events include, for example:

   •	 An incident results in a breach to the information system, producing a loss
      of confidence by the organization in the confidentiality, integrity, or
      availability of information processed, stored, or transmitted by the system;
   •	 A newly identified, credible, information system-related threat to
      organizational operations and assets, individuals, other organizations, or
      the Nation is identified based on intelligence information, law enforcement
      information, or other credible sources of information;
   •	 Significant changes to the configuration of the information system through
      the removal or addition of new or upgraded hardware, software, or
      firmware or changes in the operational environment potentially degrade the
      security state of the system; or
   •	 Significant changes to the organizational risk management strategy,
      information security policy, supported missions and/or business functions,
      or information being processed, stored, or transmitted by the information
      system.

When such events occur, organizations, at a minimum, take the following actions:

•	 Reconfirm the security category and impact level of the information system.
   The organization reexamines the FIPS 199 security category and FIPS 200
   impact level of the information system to confirm that the security category
   and system impact level previously established and approved by the
   authorizing official are still valid. The resulting analysis may provide new
   insights as to the overall importance of the information system in allowing the
   organization to fulfill its mission/business responsibilities.
•	 Assess the current security state of the information system and the risk to
   organizational operations and assets, individuals, other organizations, and the
   Nation.
   The organization investigates the information system vulnerability (or
   vulnerabilities) exploited by the threat source (or potentially exploitable by a
   threat source) and the security controls currently implemented within the
   system as described in the security plan. The exploitation of information
   system vulnerabilities by a threat source may be traced to one or more factors
   including but not limited to: (i) the failure of currently implemented security
   controls; (ii) missing security controls; (iii) insufficient strength of security
   controls; and/or (iv) an increase in the capability of the threat source. Using


                                         15

                       SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED

                     the results from the assessment of the current security state, the organization
                     reassesses the risks arising from use of the information system.
                  •	 Plan for and initiate any necessary corrective actions.
                     Based on the results of an updated risk assessment, the organization determines
                     what additional security controls and/or control enhancements or corrective
                     actions for existing controls are necessary to adequately mitigate risk. The
                     security plan for the information system is updated to reflect any initial
                     changes to the original plan. A plan of action and milestones is developed for
                     any noted weaknesses or deficiencies that are not immediately corrected and
                     for the implementation of any security control upgrades or additional controls.

                     After the security controls and/or control upgrades have been implemented and
                     any other weaknesses or deficiencies corrected, the controls are assessed for
                     effectiveness to determine if the controls are implemented correctly, operating
                     as intended, and producing the desired outcome with respect to meeting the
                     security requirements for the information system. If necessary, the security
                     plan is updated to reflect any additional corrective actions taken by the
                     organization to mitigate risk.

                 Additionally, NIST SP 800-53, Revision 3, 21 states that the risk assessment policy
          and procedures should include the following:

                  a. A formal, documented risk assessment policy that addresses purpose, scope,
                     roles, responsibilities, management commitment, coordination among
                     organizational entities, and compliance; and
                  b. Formal, documented procedures to facilitate the implementation of the risk
                     assessment policy and associated risk assessment controls.
(b) (5)




          21
          Ibid.
   (b) (5)



                                                          16

                                        SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

        An IBWC official stated that there is no continuous monitoring program in place that
includes routine vulnerability scanning, log monitoring, and notification of unauthorized devices.
Also, policies and procedures detailing the strategy and plans for conducting continuous
monitoring activities are not documented. Without periodic reviews or the performance of risk-
based security assessments, new threats and vulnerabilities may not be identified and mitigated
in a timely manner.

           Recommendation 10. OIG recommends that the Chief Information Officer develop and
           implement policies and procedures to perform continuous monitoring to include
           automated routine vulnerability assessments for all major systems and general support
           systems (GSS). The results of such security assessments should be reviewed, and Plans
           of Action and Milestones should be developed for the improvement of the security
           controls of major systems and GSS, as required by National Institute of Standards and
           Technology Special Publications 800-53, Revision 3, and 800-53A.

           Management Response: IBWC concurred with the recommendation, stating that the
           IMD “has acquired hardware and software that will provide the necessary tools to
           establish an effective continuous monitoring program.” IBWC also stated the IMD had
           “installed a Solar Winds Orion network performance monitor that will grant them the
           ability to monitor network activity.”

           OIG Analysis: OIG considers the recommendation resolved. This recommendation can
           be closed when OIG reviews and accepts documentation showing that IBWC has
           developed and implemented policies and procedures to perform continuous monitoring to
           include automated routine vulnerability assessments for all major systems and GSSs.

H. Contingency Planning
         IBWC’s COOP does not comply with NIST SP 800-34. 24 Specifically, IBWC had not
updated its contingency plan and testing policies and procedures. Specifically, the IBWC COOP
for its GSS had not been updated to reflect significant changes to the environment, and testing
had not been performed.

        NIST SP 800-34, Revision 1, 25 states that information systems are “vital elements” in
most business functions and that “it is critical” that the services provided by these systems be
able to operate effectively without excessive interruption. The publication further states,
“Contingency planning supports this requirement by establishing thorough plans, procedures,
and technical measures that can enable a system to be recovered as quickly and effectively as
possible following a service disruption.”

       An IBWC official stated that the field offices in Nogales, San Diego, and Yuma (AZ) are
configured for a manual backup process and that the manual backup is performed remotely on a
monthly basis. The data is backed up on an on-site Terabyte external drive. There is no off-site

24
     NIST SP 800-34, rev. 1, Contingency Planning Guide for Federal Information Systems, May 2010.
25
     Ibid.

                                                        17

                                    SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


backup for the three field offices. NIST SP 800-53, Revision 3, 26 requires agencies to identify
an alternate storage site that is geographically separated from the primary storage site so as not to
be susceptible to the same hazards and to conduct annual tests of backup information to verify
media reliability and information integrity.

         An IBWC official stated that the COOP needs to be reassessed and that there was a
manual backup process because of the types of servers at the sites. Also, although an alternate
site is running, its status as a “hot” or “cold” site 27 still needs to be determined. However, the
lack of an updated contingency plan may prevent IBWC from accessing critical information and
resources and resuming business functions if an extended outage and/or a disaster occurs.

         Recommendation 11. OIG recommends that the International Boundary and Water
         Commission finalize the Continuity of Operations site and conduct testing for operational
         effectiveness, as required by National Institute of Standards and Technology Special
         Publication 800-34, Revision 1.

         Management Response: IBWC concurred with the recommendation, stating that the
         IMD “is in the process of updating the current COOP policy and procedure as the
         infrastructure at the COOP site in Las Cruces, NM continues to be developed.” IBWC
         also stated that the IMD “is developing a continuity plan to be reviewed by management
         to determine what level of COOP the IMD will be required to maintain, taking into
         consideration the financial and maintenance requirements needed.”

         OIG Analysis: OIG considers the recommendation resolved. This recommendation can
         be closed when OIG reviews and accepts documentation showing that IBWC has
         finalized the Continuity of Operations site and conducted testing for operational
         effectiveness.

         Recommendation 12. OIG recommends that the International Boundary and Water
         Commission identify an off-site backup for its field offices in Nogales (AZ), San Diego
         (CA), and Yuma (AZ), as required by National Institute of Standards and Technology
         Special Publication 800-34, Revision 1.

         Management Response: IBWC stated that the recommendation is resolved in that the
         IMD “has acquired the needed client to allow for the full offsite backup of all field
         offices.”

         OIG Analysis: OIG considers the recommendation resolved. This recommendation can
         be closed when OIG reviews and accepts documentation showing that IBWC has
         identified an off-site backup for the three field offices specified.




26
  NIST SP 800-53, rev. 3, Aug. 2009.

27
  A hot site is a building already equipped with processing capability and other services, and a cold site houses

processors that can be easily adapted for use.


                                                          18

                                    SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED



   I. Oversight of Contractor System

             IBWC had not implemented an effective oversight program of its contractor system.


                           Since IBWC had not developed policies and procedures to oversee the
   San Diego operations, the field office relied heavily on contractor-produced policies and
   procedures.




           OIG also found that IBWC officials did not have adequate control over the IT functions
   at the San Diego waste treatment plant or the IT assets purchased and maintained by the
   contractor in support of operations. During its fieldwork, OIG found that the contractor had an
   inappropriate degree of latitude on purchases of IT assets, with little or no input from IBWC
   management. Additionally, contractor-owned software was operating on the local area network
   (LAN) at the San Diego waste treatment plant without proper review and approval by IBWC’s
   IMD.

           OMB Memorandum M-11-33 30 states: “Agencies must develop policies for information
   security oversight of contractors and other users with privileged access to Federal data.
   Agencies must also review the security of other users with privileged access to Federal data and
   systems.”

           An IBWC official stated that the inventory database had not been updated to remove old
   components or include newly purchased components. The San Diego Field Office project
   manager’s understanding was that oversight of contractor operations was assigned to the field
   office and the contracting officer’s representative and that the IT functions rest with IMD.
   However, the contracting officer’s representative is responsible more specifically for the
   employees and for hardware/operations of the plant rather than for the IT assets. Without
   adequate contractor oversight, IBWC has minimal assurance that contractor personnel are
   compliant with FISMA, OMB requirements, and NIST standards. Further, because the IMD has
   no review and approval process, contractors may be purchasing IT assets that are not in the best
   interest of IBWC. Finally, without proper oversight, there is an increased risk that data
   collected, processed, and maintained is exposed to unauthorized access, use, disclosure,
   disruption, modification, or destruction.

             Recommendation 13. OIG recommends that the International Boundary and Water
             Commission ensure that its Information Management Division is involved in the
             oversight of information technology assets purchased and maintained by the contractor in

(b) (5)

   30
        OMB Memorandum M-11-33, Sept. 14, 2011.

                                                    19

                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       support of operations at the waste treatment plant in San Diego (CA), as required by
       National Institute of Standards and Technology Special Publications 800-53, Revision 3,
       and 800-82 and with Office of Management and Budget Memorandum M-11-33.

       Management Response: IBWC concurred with the recommendation, stating that the
       CIO “is requiring modifications to the contract in place, to ensure the IMD is notified in a
       timely manner, of all planned technology asset purchases, in order to provide the required
       level of oversight of new IT purchases and existing assets maintained by the contractor.”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and accepts documentation showing that IBWC has
       implemented oversight of IT assets purchased and maintained by the contractor in
       support of operations at the waste treatment plant in San Diego.

       Recommendation 14. OIG recommends that the International Boundary and Water
       Commission (IBWC) ensure that its Information Management Division reviews and
       approves software prior to installation on IBWC assets, as required by National Institute
       of Standards and Technology Special Publication 800-53, Revision 3, and Office of
       Management and Budget Memorandum M-11-33.

       Management Response: IBWC concurred with the recommendation, stating that the
       CIO “is requiring modifications to the contract in place, to ensure the IMD is notified in a
       timely manner of all planned software purchases in order to provide the required level of
       oversight of new IT purchases and existing software maintained by the contractor.”

       OIG Analysis: OIG considers the recommendation resolved. This recommendation can
       be closed when OIG reviews and accepts documentation showing that IBWC has
       implemented a process to review and approve software prior to installation on IBWC
       assets.

J. Security Capital Planning
        Information security is not integrated into IBWC’s Capital Planning and Investment
Control process. IBWC did not provide OMB with a detailed explanation for the major
investment related to its IT capital investment. Inadequate planning increases the risk that
requests for funding investments will not receive proper consideration. An IBWC official stated
that the resource management goals within the IBWC strategic plan did not include IT.
According to IBWC officials, because IBWC is a small organization, its budget requirements are
not at the level established for reporting to OMB. IBWC understands the threshold to be
$2 million, but IBWC current IT assets are approximately $100,000. However, IBWC
acknowledged that the current assets do not include the SCADA systems. As such, IBWC had
been using the IT workplan and had not been assessing the risk identified in the POA&Ms as
part of the IBWC capital planning request. IBWC has been working on a year-to-year IT
workplan to identify high priority tasks to continue developing the IT environment.



                                               20

                             SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED


                   OMB Memorandum M-11-33 31 mandates that IBWC “integrate and fund IT security over
          the life cycle of each system.” The memorandum also states that security requirements for a
          steady-state (existing) system (including maintenance and operation costs at its current capability
          and performance level) must be met before spending funds on new systems or modernizing an
          existing system.

                 The lack of integration between the POA&M process and the capital planning process
          negatively affects the funding prioritization in IBWC. The current process does not properly
          consider needed IT investments and subsequently fails to request necessary funding.

                 Recommendation 15. OIG recommends that the Chief Information Officer ensure that
                 all funding for information technology (IT) security investments and IT components is
                 tracked, as required by Office of Management and Budget Memorandum M-11-33.

                 Management Response: IBWC concurred with the recommendation, stating that the
                 CIO “will utilize and expand upon the existing budget account structure in place to track
                 all expenses by Operating Allowance or Cost Center for all labor and non-labor costs to
                 track all IT costs.” IBWC also stated that it “will ensure that through an effective
                 information security program” that IBWC “will effectively protect information and
                 systems as well as maintain the integrity, reliability, availability, and confidentiality of
                 our information, consistent with Office of Management and Budget Memorandum M-00-
                 07 and M-06-19.”

                 OIG Analysis: OIG considers the recommendation resolved. This recommendation can
                 be closed when OIG reviews and accepts documentation showing that IBWC has ensured
                 that all funding for IT security investments and IT components is tracked.
(b) (5)




       31
          OMB Memorandum M-11-33, Sept. 14, 2011.
   (b) (5)

                                                          21

                                        SENSITIVE BUT UNCLASSIFIED
                                                                                                     (b) (5)

                                         SENSITIVE BUT UNCLASSIFIED
(b) (5)




                    In addition to the weakness in physical and environmental protection already
          mentioned, OIG identified a weakness with physical access to the server room at IBWC’s United
          States Section headquarters in El Paso. Access is not granted on a “need to know” basis; rather,
          all IMD staff members have access. The server room is accessed through a locked door with a
          cipher lock; however, employees do not have unique combinations (all employees use the same
          combination for access), and this defeats the accountability and control to IBWC’s information
          and information systems.

                    According to NIST SP 800-53, Revision 3, 33 the organization develops and keeps
          current a list of personnel with authorized access to the facility where the information system
          resides (except for those areas within the facility officially designated as publicly accessible),
          issues authorization credentials, reviews and approves the access list and authorization
          credentials, and removes from the access list personnel no longer requiring access.
                    (b) (5)




                                                                            In addition, there were no
          emergency shutoffs of power or emergency lighting within the computer area to prevent damage
          to equipment or injury to personnel. Finally, IBWC had not maintained fire suppression and
          detection devices for water and humidity.

                    NIST SP 800-53, Revision 3, 34 states that “the organization protects power equipment
          and power cabling for the information system from damage and destruction.” NIST SP 800-53
          also states that “the organization provides the capability to shut off power to the information
          system or individual system components in emergencies; provides a short-term uninterruptible
          power supply to facilitate an orderly shutdown of the information system in the event of a

          33
           NIST SP 800-53, rev. 3, PE-2 Physical Access Authorizations, Aug. 2009.
          34
           Ibid, PE-9 Power Equipment and Power Cabling, PE-10 Emergency Shutoff, PE-11 Emergency Power, PE-12
          Emergency Lighting, and PE-13 Fire Protection apply.

                                                            22

                                         SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


primary power source loss; employs and maintains automatic emergency lighting for the
information system that activates in the event of a power outage or disruption and that covers
emergency exits and evacuation routes within the facility; and employs and maintains fire
suppression and detection devices/systems for the information system that are supported by an
independent energy source.”

           Without an effective physical and environmental protection plan, personnel may be
unaware of risks that could compromise the confidentiality, integrity, and availability of data or
result in injuries to personnel and damage or destruction of IBWC IT assets.
    (b) (5)




              Recommendation 19. OIG recommends that the International Boundary and Water
              Commission implement a process to review, update, and approve the Information
              Management Division staff access list to the server room at its office in El Paso (TX),
              as required by National Institute of Standards and Technology Special Publication
              800-53, Revision 3.

              Management Response: IBWC concurred with the recommendation, stating that the
              CIO and the IMD recognize “the risks associated with an unmonitored entry way into
              the agency’s main LAN [local area network] room and will take the necessary steps to
              implement an additional proximity card reader to limit access to only authorized IMD
              personnel.”

                                                   23

                                SENSITIVE BUT UNCLASSIFIED
                                                                                    (b) (5)

                            SENSITIVE BUT UNCLASSIFIED

          OIG Analysis: OIG considers the recommendation resolved. This recommendation
          can be closed when OIG reviews and accepts documentation showing that IBWC has
          implemented a process to review, update, and approve IMD’s staff access list to the
          server room at its office in El Paso.

          Recommendation 20: (b) (5)
(b) (5)




  (b) (5)




          Recommendation 21. OIG recommends that the International Boundary and Water
          Commission determine the most cost-effective protective measures for fire prevention
          and damage to file servers, as required by National Institute of Standards and
          Technology Special Publication 800-53, Revision 3.

          Management Response: IBWC concurred with the recommendation, stating that the
          CIO “is working with the IMD to issue specific guidance to the San Diego and Yuma
          Area Operations Managers, detailing actions required removing all unnecessary items
          out of the server rooms to minimize or eliminate the potential of damage to equipment
          or injury to personnel.”

          OIG Analysis: OIG considers the recommendation resolved. This recommendation
          can be closed when OIG reviews and accepts documentation showing that IBWC has
          implemented the most cost-effective protective measures for fire prevention and
          damage to file servers.




                                             24

                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



                                 List of Recommendations


Recommendation 1: OIG recommends that the Chief Information Officer ensure that all assets
are accounted for in the inventory system and develop a process that updates, not less than
annually, the International Boundary and Water Commission’s (IBWC) system inventory when
changes are made to those information systems operated by or under the control of IBWC or by
third-party contractors or agencies on behalf of IBWC, as required by the Federal Information
Security Management Act.

Recommendation 2: OIG recommends that the Chief Information Officer improve the risk
management strategy at the organizational level for assessing, responding to, and monitoring
information security risk, as required in National Institute of Standards and Technology Special
Publication 800-37, Revision 1.

Recommendation 3: OIG recommends that the Chief Information Officer:

   •	 Develop the security assessment and authorization packages for the Supervisory Control
      and Data Acquisition systems as required by National Institute of Standards and
      Technology Special Publication (NIST SP) 800-82 and NIST SP 800-53, Revision 3.
   •	 Improve existing procedures to ensure security assessment and authorization packages
      are updated every 3 years or when a significant change occurs, as required by NIST SP
      800-37, Revision 1.
   •	 Improve existing procedures to ensure system security plans and security assessment
      reports are updated as required to comply with the security baseline controls in NIST SP
      800-53, Revision 3.
   •	 Perform annual security assessments of a subset of a system’s security controls, as
      required by NIST SP 800-37, Revision 1.

Recommendation 4: OIG recommends the Chief Information Officer develop and implement
security configuration management procedures and periodically assess compliance with the
implemented procedures, as required by National Institute of Standards and Technology Special
Publication 800-53, Revision 3.

Recommendation 5: OIG recommends that the Chief Information Officer develop procedures
for the oversight of all systems and hardware that are part of the International Boundary and
Water Commission operations, as required by National Institute of Standards and Technology
Special Publication 800-53, Revision 3.

Recommendation 6: OIG recommends that the Chief Information Officer enforce the security
awareness training policy requiring all personnel to attend initial and refresher security
awareness training and enforce consequences of non-compliance for personnel who do not
successfully complete the security awareness training, as required by National Institute of
Standards and Technology Special Publication SP 800-53, Revision 3, and Office of
Management and Budget Circular No. A-130.



                                               25

                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Recommendation 7: OIG recommends that the Chief Information Officer enforce the security
awareness training requirement for those personnel with significant security responsibilities, as
required by National Institute of Standards and Technology Special Publication SP 800-53,
Revision 3, and Office of Management and Budget Circular No. A-130.

Recommendation 8: OIG recommends the Chief Information Officer implement a Plan of
Action and Milestones (POA&M) process and review the quarterly POA&M reports and all
elements of the POA&M, as required by Office of Management and Budget (OMB)
Memorandums M-02-01 and M-08-21.

Recommendation 9: OIG recommends that the Chief Information Officer develop a remote
access policy and procedure, as required by National Institute of Standards and Technology
Special Publication SP 800-53, Revision 3.

Recommendation 10: OIG recommends that the Chief Information Officer develop and
implement policies and procedures to perform continuous monitoring to include automated
routine vulnerability assessments for all major systems and general support systems (GSS). The
results of such security assessments should be reviewed, and Plans of Action and Milestones
should be developed for the improvement of the security controls of major systems and GSS, as
required by National Institute of Standards and Technology Special Publications 800-53,
Revision 3, and 800-53A.

Recommendation 11: OIG recommends that the International Boundary and Water
Commission finalize the Continuity of Operations site and conduct testing for operational
effectiveness, as required by National Institute of Standards and Technology Special Publication
800-34, Revision 1.

Recommendation 12: OIG recommends that the International Boundary and Water
Commission identify an off-site backup for its field offices in Nogales, (AZ), San Diego (CA),
and Yuma (AZ), as required by National Institute of Standards and Technology Special
Publication 800-34, Revision 1.

Recommendation 13: OIG recommends that the International Boundary and Water
Commission ensure that its Information Management Division is involved in the oversight of
information technology assets purchased and maintained by the contractor in support of
operations at the waste treatment plant in San Diego (CA), as required by National Institute of
Standards and Technology Special Publications 800-53, Revision 3, and 800-82 and with Office
of Management and Budget Memorandum M-11-33.

Recommendation 14: OIG recommends that International Boundary and Water Commission
(IBWC) ensure that its Information Management Division reviews and approves software prior
to installation on IBWC assets, as required by National Institute of Standards and Technology
Special Publication 800-53, Revision 3, and Office of Management and Budget Memorandum
M-11-33.




                                                26

                              SENSITIVE BUT UNCLASSIFIED

                                                                                                (b) (5)

                                 SENSITIVE BUT UNCLASSIFIED

   Recommendation 15: OIG recommends that the Chief Information Officer ensure that all
   funding for information technology (IT) security investments and IT components is tracked as
   required by Office of Management and Budget Memorandum M-11-33.
(b) (5)




   Recommendation 19: OIG recommends that the International Boundary and Water
   Commission implement a process to review, update, and approve the Information Management
   Division staff access list to the server room at its office in El Paso (TX), as required by National
   Institute of Standards and Technology Special Publication 800-53, Revision 3.
(b) (5)




   Recommendation 21: OIG recommends that the International Boundary and Water
   Commission determine the most cost-effective protective measures for fire prevention and
   damage to file servers, as required by National Institute of Standards and Technology Special
   Publication 800-53, Revision 3.




                                                    27

                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



                   Appendix A. Objectives, Scope, and Methodology

        To fulfill its responsibilities related to the Federal Information Security Management Act
of 2002 (FISMA), the Office of Inspector General (OIG), Office of Audits, visited the El Paso
(TX) headquarters and the San Diego (CA) and Yuma (AZ) field operations offices to evaluate
the International Boundary and Water Commission’s (IBWC) information technology security
program and practices and to determine the effectiveness of the program for FY 2011.

        FISMA requires each Federal agency to develop, document, and implement an agency-
wide program to provide information security for the information systems that support the
operations and assets of the agency, including those provided or managed by another agency or
contractor or another source. To ensure the adequacy and effectiveness of these controls,
FISMA requires the agency’s inspector general or an independent external auditor to perform
annual reviews of the information security program and to report those results to the Office of
Management and Budget (OMB) and the Department of Homeland Security (DHS). DHS uses
this data to assist in oversight responsibilities and to prepare its annual report to Congress
regarding agency compliance with FISMA.

        OIG conducted its evaluation from June through October 2011. In addition, OIG
performed the evaluation in accordance with generally accepted government auditing standards
(GAGAS) and with FISMA, OMB, and National Institute of Standards and Technology Special
Publication guidance. GAGAS requires the audit to be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for its findings and conclusions
based on the audit objectives. OIG believes that the evidence obtained provides a reasonable
basis for its findings and conclusions based on the audit objectives.

        OIG performed fieldwork from July through October 2011. The fieldwork was
completed before OMB Memorandum M-11-33, dated September 14, 2011, which provided
instructions for FY 2011 reporting requirements, 1 was issued. OIG reviewed the memorandum
and evaluated its impact on the results of the evaluation but determined that no changes were
required.




1
 OMB Memorandum M-11-33, FY 2011 Reporting Instructions for the Federal Information Security Management
Act and Agency Privacy Management, dated Sept. 14, 2011.

                                                  28

                               SENSITIVE BUT UNCLASSIFIED

                             SENSITIVE BUT UNCLASSIFIED



          Appendix B. Followup of Recommendation From the FY 2010 

            Federal Information Security Management Act Report

        The FY 2010 Federal Information Security Management Act (FISMA) evaluation was
conducted by an independent public accounting firm, which issued its report (Audit of the
International Boundary and Water Commission Federal Information Security Management Act
issued July 30, 2010) with one consolidated finding and recommendation. The evaluation team
reviewed actions implemented by management to respond to the findings identified in the FY
2010 FISMA report.

FY 2010 FISMA Recommendation
We recommend that USIBWC management continue its efforts to ensure that its information
security program complies with the standards and guidelines established by NIST and OMB.

The status of the recommendation as presented in the report:

2011 Status: Closed. OIG reviewed the findings related to the recommendation and noted that
all findings were lumped into one recommendation. However, OIG separated each finding and
assigned separate recommendations in the FY2011 FISMA evaluation to provide IBWC
management the ability to close the recommendation as corrective action is completed rather
than waiting until all of identified components of the recommendation are corrected.




                                               29


                             SENSITIVE BUT UNCLASSIFIED

                            SENSITIVE BUT UNCLASSIFIED



Appendix C. OIG Outline for Action: Physical Security Concerns

    at the International Boundary and Water Commission



                                                              Un ited Sta tes Department of S ta te
                                                              and the Broadcasting Board of Governors

                                                              Office oj Inspector General


                                                                   AUG 26 2011
 The Honorable Edward Drusina, U. S. Commissioner
 lntemational Boundary and Water Commission
 United States and Mexico, U.S. Section
 4171 North Mesa Street, Suite C- I 00
 EI Paso_ TX 79902- 1441     U
 Dear Commiss~sina:

 in accordance with the Federal lnfonnation Security Management Act (FlSMA) of2002 (public
 Law 107-347, Title Ill) , the Department of State, Office oflnspector General (010), recently
 conducted a review of the International Boundary and Water Commission's (TBWC) infonnation
 security program and practices. The objective of this review was to evaluate the progress IBWC
 bas made in implementing an effective infonnation security pro!:,JTam and related practices.

 OIG ' s Office of Audits perfonned the review at the EI Paso (TX) headquarters and at the Yuma
 (AZ) and San Diego (CA) field operations offices. The complete results of the review will be
 issued in the FY 2011 IBWC FISMA report. However. during its review, OIG identified two
 physical sccurity concerns that require your immediate attention : lack of completion of
 background investigations of employees and contractors at IBWC and lack of control procedures
 over the remote gate devices and access to IBWC operations in San Diego. The findings and
 reconunendations are outlined in the enclosed OIG Outline for Action.

 Although these recommendations will be included in DIG's FY 2011 IBWC FISMA report,
 immediate action is needed to address these security issues. Therefore. please provide a response
 to the recommendati ons within 10 days of the date of this correspondence.

 If you have any questions , please contact Evelyn R. Klemstine. Assistant Inspector General for
 Audits. by email at klem stinee(Q)state.gov or at (202) 663-0372 or Jerry Rainwaters. lnformation
 Technology Division Director, by email at raimvatersj @ state.gov or at (703) 284- 1841.

 Sincerely,




 Enclosure

 cc: USIBWBC ­    (b) (5)
     WHAIMEX
                              SENSITIVE BUT UNC LASS IFI E D
                                         DRA FT




                                                  30 


                            SENSITIVE BUT UNCLASSIFIED

          SENSITIVE BUT UNCLASSIFIED


(b) (5)




                      31 


          SENSITIVE BUT UNCLASSIFIED

          SENSITIVE BUT UNCLASSIFIED



(b) (5)




                      32 


          SENSITIVE BUT UNCLASSIFIED

          SENSITIVE BUT UNCLASSIFIED



(b) (5)




                      33 


          SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED



     Appendix D. International Boundary and Water Commission

                Response to OIG Outline for Action


                             INTERNATIONAL BOUNDARY AND WATER COMMISSION
                                       UNITED SfATES AND MEXICO

                                                      September 2, 20 II



OFFTCE OF TItE COMMI$lONER
  UNTTF..osrAl'ESSECnON




      United States Department of State
      Harold W. Geisel
      Deputy Inspector General
      Office of Inspector General
      Washington, D. C. 20520


      Subject: OIG Outline for Action: Physical Security Concerns at the International Boundary and
      Water Commission (JBWC)


      Dear Mr. Geisel,

      Thaok you for the opportunity to respond to findings and recommendations reported in the OIG
      Outline for Action: Physical Security Concerns at the International Boundary and Water
      Commissioner report, identified during the conduct of the Federal Infonnation Security
      Management (FISMA) of2oo2 (Public Law 107-347, Title III) review dated August 26, 2011.

      We are pleased to report that immediate steps have been initiated to implement actions to
      respond to findings and recommendations identified. Specific details for each finding and
      T~commendation         are provided attached.




             The Commons, Building C, Suite tOO. 4171 N. Mesa Street. EI Paso, Texas 79902-1441
                       (915) 832-4100. Fax: (915) 832-4190. http:! Iwww.ibwc.gov




                                                             34

                                   SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED





(b) (5)




                      35 


          SENSITIVE BUT UNCLASSIFIED

          SENSITIVE BUT UNCLASSIFIED





(b) (5)




                      36 


          SENSITIVE BUT UNCLASSIFIED

          SENSITIVE BUT UNCLASSIFIED





(b) (5)




                      37 


          SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED





             5




            38 


SENSITIVE BUT UNCLASSIFIED

                                SENSITIVE BUT UNCLASSIFIED



Appendix E. International Boundary and Water Commission Response





                        INTERNATIONAL BOUN D ARY AND WATE R COMMISSION
                                  UN ITEDSTATF.S AND MEXICO

                                                   Novemb ..T 9, 20 11


   /I.-Ir. Harold W. Geisel
   United States Department of State
   De put y Ins pe<:tor Geneml
   Office of Ins pector General
   Washington, D. C . 20520

   Subject: Evaluation of th e Uni ted States Sectio n, Int ernati o nal   J3.O I~lda ry   and Water COlllmission
   (lBWe) Info rnlation Sccurity Progrant

   Dcar Mr. Ge isel:

   '!1tank you fo r the oppo rtunit y to rev iew and comm ent on the d raft repo n and recommcndations. n lc
   lowe is cager to fu lfil l its responsibilities re lated to eom plitUlee w ith the Fcdi!ral Inlo rmati on Sccurit y
   Mana gement Act, and thi s eval uation has provided us clea r obj ecti ~'es towards achii!vin g that goa l.

   We arc pleased to submit the follow ing respo nses for you r review and co nsideration for incl usion in
   th e final report . Specific det<1il s for each finding and rccom mend<1t ion are provi ded in Ihe <1l1ached.

                                                      Sincerely,


                                                     dJ~
                                                      Edward Dmsina, P. E.
                                                      COllllllissioller




           11lc Com m o ns, Bu ilding C, Su ile 100 . 4171 N. Mesa Street . E1 Paso, Texas 79902-144]
                        (915) 832-4100 . Fax: (915) 832-4190 . h ltp://wlVw.ibwc.gov




                                                          39 


                                SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED





Control Weakness A. Systemlnvenloly - IBWC has not implemented a proce.u or procedure 10 updale
and lIIanage its in/ormalion technology (17) assets. Wilhozjl a process to properly identify. documenl
and maintain an inventOlY of systems. IBWC may nOI have an acC/,rate accounting of all IT assets and
related system inlmiaces and underlying .mpport systems_

ReculIlmendation 1 "010 rccOlllmends that the C IO en~ u rc that all assets arc accou nted for in the
inventory system and develop a process that updates, not less than amlUally, the mwc's system
inventory when changes arc made to those infonllation systems operatcd by or Wlder the control of
18WC, or by third party contractors or agencies on behalf of IBWC as required by the federal
Infonnation Sectlrity Ivlanagement Act"

Response/Action: Concur. TIle Infonllation Management Division has initiated the development of its
own IT asset inventory, in addition to the one maintained within the Department of State Integrated
Logistics l\-lanagcmcnt System (ILl\'iS), ill order to accurately ac<:ounl for all IT asse ts that make up the
General Support System and existing Supervisory Control and Data Acquisition (SCADA) systems
identified in San Diego, CA, Nogales, AZ, Amistad and Falcon, TX. Current system inventory
documentation and the existing System Security Plan (SSP) are being updated to inelude the identified
SCADA systenls mid the asselS identified in the I" and 3rd fl oor wiring closets. The existing SSP is
also being updated to identify the intcrfaces between the Headquarters and field office UNs, and to
document oth,,'!" networks not operated by the ageney_ All scheduled field officc visits by the 1M ]) will
include a thorough invcntory of all IT assets and documentation or their locations. Newly developed
Configuration Management documentation, particularly system architecture changcs that involvc thc
addition of a new configuration item, will contain a method or requiring that the system inventory and
related documentation be updated upon full implementation. The existing contract with contractors
that operate systems under thc IBWC's control is in the process of being modificd to require that
acquisition of new a~sc ts he accounted for and approved by the Infonnation Management Div i~ ion
(I ~'ID) and call for an annual inventory.


Control Weakness B: RiskNfanagemenr Program - IBWC's risk management program/or information
sec1Irity needs improvement at the organization and system levels. At the organizational level. IBWC
had not implemented a risk managemenlfralllework and information security poliCies and procedures
that describe the roles and responsibilities 0/ key participants. 010 f01lnd that IBWC did not have
procedures for the risk management framework or information security poliCies and procedures that
describe the roles and responsibilities of key participants_ As sllch. 010 could not review the risk
management framework and how lBWC manages iriformation securily risk..

Reco mmend ation 2: "010 recommends that the Chief Infomlation Officer improve the risk
managenlent strategy at the organizational level lor assessing, respond ing to, :Uld monitoring
infomlation security risk a~ n:quin:d in National Institute of Stalldard~ and Techrwlogy Special
Publication 800-37 Rev ision I. "

Res(}on.~dAction.-  Concur. ·nle CIO h~ initiated steps neces~ary to bring ab()ut an elTective ri~k
management frmllework and policies and procedures in accordance wi th NIST SP 800-37 Revision 1.
TIle IM D has beglUl updating the existing System Security Plan to include all current security baseline
controls, changes in the ass and identified SCADA systems. TIle IMD will prepare a new security
assessment mid authorization package to apply for and achieve an Alllhorit y to Operate designation
from the new Designated Authority in FYI2. Following training of two IT Specialists on SCADA




                                                    40 


                           SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED





securit y in November, a securit y assessment and authorization packages will be completed for all
identified SCADA systems.


Recommendation 3: ''OIG recommends that the Chiefiniomllltioll Ollicer:
           Develop the security assessment and authorization p~ekages for thc Supervisory Control
           and Data Acquisition systems as required by National Institute of Stmldards mId
           TeciUlology Special Publication (NIST SP) 800-82 and NIST SP 800-53, Revision 3.
           Improve cxisting procedures to ensure security assessment and authorization packages
           are updated every 3 years or when a significmll change occurs, as required by NIST SP
           800-37, Revision I.
           Improve existing procedures to ensure systcm security plans mId security asscssment
           reports are updated as required to comply with the securit y baseline controls in NIST SP
           800-53, Revision 3.
           Perfonn mlllual security asseSSlIlents of a subset of a system'S seeurit y eontrols as
           required by NIST SP 800-37, Revision I.

Re~fJOn5e/A ct/On Concur. 'Ill(: CIO will take a ll necessary action to comply with all items under this
recommendation and to comply with NIST S P 800-53, Revision 3, NIST S P 800-37, Revision I, and
SP 800-82.

Control Wookness C: Configuration Management - IBWC had not implemented effective configuration
management (CM) stcwdards (wd procedures for its IT environment. Although IBWC had CM
standard.~ and procedures in place. it did not aCCOlml for the patch management proces.~ to evaluate
patches for applicability. installation process, monitoring. and periodic review of the patch status on
the systems. Further. IBWC did not maintain control over all hardware connected to its SCADA system
in San Diego.

Recommendation 4: ''OIG fCcommends the Chief Infomlation Olliccr dcvelop mId implement
security configuration mmlagemcnt procedures and pcriodieally asscss compliance with the
implemented procedures as required by Nat ional Institute of Stmldards and Technology Special
Publication 800-53, Re vision 3."

Response/Action: Concur. llh~ draft Configuration Management po licy and procedure is currently
being reviewed hy management for approval by the Commissioner. '[ne CIO has access to the [1I.·[[Ys
collaboration intrmlct ~itc to allow eon~tant asscssments on complianee with the newly implemcnted
procedures. With the acquisition of new slX'urity appliances purchased in FYII , the IA'! D will be able
to evaluate patches for applicahi[ity, install, m<mitor and rev icw patch status on all systems in a much
more efficient and elTective way.

Recommendation 5: "O[G recommends the Chief Infonnation Officer develop procedures for the
o\"er.;ight or all systems and hardware that are part I)r the Intemati()tlal Boundary and Water
Commission operations as required by National Institute of Standards and Technology Special
Publ ication XOO-53, Re vision 3."

Response/Action: Concur. '111e IMD has acquired hardware alld software t hat will provide the
necessary tools tl) estahlish an clTcctive continuous monitoring program. 'Inese assets will help the
I[I.·II) detect and measure the elTectiveness of security contmls appl ied within the GSS. All acquired
items arc in the process of being configured and implt11lcnted. Ihe IMD has already installcd and




                                                  41 


                          SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED





configured a monitor in the general area of the lMD that automatically scrolls through the status
screens of several critical systems and services in order to keep them moni tored in real-time. A
software application called "RcdLine" whieh works with thc enterprise email system has recently been
configured to email n.... D staff' if any of the necessary services go down, or are showing signs of
failure. Additional equipment include an lntmsion Detection System (IDS), Network Admissions
Control (NAC) and a Network Scanner which will all provide automated methods of detecting changes
within our GSS and notify the IMD of compromised PC 's or those that may show irregular activity.
With the installation of new switches at HQ's and all field oflices, the I!\"ID will gain port level
visibility of all IT assets to infornl ollr PCrsOlUlcl of any signs of configuration changes or unauthorized
acti vity. TIle IMD has also recently installed a Solar Winds Orion network perfonnance monitor that
has greatly enlHUlced our ability to monitor network activity. CISCO works has also been installed
which sends alerts to IMD stafTwhen certain network activity thre;;holds have been exceeded or show
signs of potentially dangerous acti vity.        A thorough inventory of all hardwa re cotUlected 10 the
SCADA system in San Diego has been completed. In addition, the contract currently in place for this
Oovenllllent Cftvned, Contractor Operated sitc is being modified to ensure control ovcr all asse ts
located at the site is managed by the IBWC. TIle contractor will also be required to update their
internal policy and procedures to designate oversight of all systcms and hardware to t he Jr.-ID.

Control Weakness D: Security Training. Although IBWC's securiry awareness training program
requires all personnel to complete annual security awareness training and users with slgmficant
se(.11rity responsibilities 10 complete speCialized training. OIG found that If3WC employees had not
completed their general security awareness training and employees with significant security
responSibilities had not completed their specialized training.

Recomlllend ation 6: " 010 recommends the C hief lnfonnation Otricer enforce the securit y awa reness
training policy requiring all pcrso nnel to attend initial and refreshcr sceurit y awareness training and
enforce (.'on scquencc~ ofnon-compliancc for personnel who do nOi ~ lK'Ces~ full y (.'Omplete thc security
awareness training as required by National Institute of Standards and Teclmology Special Publication
SP 800-53, Revision 3, and Officc of Management and Budget Circular No. A-l30."

Response/Action: Concllr. TIle IMD conducted five IT Security training classes immediately alter the
OIG vi~it in Augus t resulting in 235 cmployecs out of 272 completing thcir annual IT Security
training. Ten out of HQ's and 27 from thc field ofiiccs did not attend thc training ses~io n s re~ ultin g in
approximatdy 87% completion rate. All employees at HQ 's that did not attend training completed
their tmining through altlTIlatc means after the September 30u, deadline. Employees in the field ofiiecs
which have not conducted thc training have had their accounts di~abled until they arc able to (.'O mplete
the IT Sccurity course. The IMD is maintaining the required doculllentation for all training conducted,
along with attendancc rosters. The It\H) has also acq uired a cloud hased training s~tem that will
allow for a much mort: efficient method to provide IT Security training 10 IBWC personne l. ·nle no:w
systcm will establish a username and password for each employee to enter thc training and their
complelion of ove r twelvc modules will bc monitored, to includc scoring of review questions at thc
end of each module.

Recommendation 7: "OIG recommends the Chief lnfonuation Otricer enforce the securit y awareness
training requirement for those personnel with significant ~ecurity responsibilities as required by
National Institute of Standards and Technology Special Publication SP 800-53, Revision 3, and OUiee
of Management and Budgct Circular No. A- IJO. "




                                                    42 


                           SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED





Response/Action: Concur. Of the eight employees within the age ncy with significant securit y
responsibilities, fi ve at1ended training resulting in approximately 63% of employees with signific(Ult
security responsibilities meeting this require ment. TIle remai ni ng employees arc scheduled to obtain
the required in FY I 2.

Control Weakness E: Plan ofAction and Milestones· WIVC had not effectively implemented a Plan of
Action and Milestones (POA&U) process. The implementation of a POA&M process is important to
assess the state ofthe OSS security posture and to aid in oversight of IT investments.

Recommendation 8: "OIG recommends the Chief lnfonnation OOicer implement a Plan of Action
and ~·.lilestones (POA&lvl) process, and re view the quarterly POA&r..·[ reports and all elements of the
POA&M m; required by Office of MlUlagement and Budget (Ol\H3) Memorandum l\'[ ·02·01lUH.I OMB
Memorandum M-08-2IA-130.·'

Re~fJOn~e/Act/On    Concur Thc draft Plan of AL1.ion lUld ~"ilc~tones policy and procedure, which
includes controls to methodicnlly address findings lUld facilitate review by the CIO on a quanerl y basis
is eUITCntl y bcing reviewed by management for approval by thc Commissioncr. TIle new policy and
procedu re ensures all req uired infonnation within cach PoA&M contains required infomlation ~ u ch as
resource requirements, corrective action milestones required to close the PoA&II:! deficiency lUld
changes to milestones. TIle Office of i\'llUlagement and Budget's (OMB) ?vicmorandullI M-02-01 and
M-08-2IA-130 were reviewed to ensure those require ments are included in the lIew policy and
procedu re.

Control Weaknes.f p. !?emote Access - II3IVC had not developed and implemented a remote acce.u
policy and procedure to comply with NI:::'j requirements. NI:::'T SF 800-53 Revision 3 states that the
orgcmizC!lion documents. monitors, und controls all methods of remote access (for example. dial-up
and the Internet) to Ihe information syslem. ineluding remole access for privileged jimctions.
Appropriate organization offiCials alllhorize each remote access method for the information system
and authorize only the necessary IIsers for each access method.

Rccommcndation 9: "010 recommends t he Chief Infonnation Officer develop a remote access policy
and proccdure as required by Nalionallnstitutc of Standards and Technology Spccial Publication SP
800-53, R ev i ~io n 3.0. A-130."

Remon~e/Act/On     Concur The 1M]) is cUTTently updating the existing AL'CCSS ContT()1 policy and
procedurc to more adcq uatcly document the rcmote acce~s procL'!;s. The updatoo documcntation will
address the methods by which the agency monitors and controls all means of femote access to the
infomJat ion system, including remote acccss for privileged functions .

Control Weakness G: Continuous Monitoring IBWC hud not developed u means to implement
continllOIl.f monitoring ofits infornwtion technology system.f. DIG (Ollnd thUl although II3WC assessed
some of the controls of the operating environment. !he.w were manual controls and IRWC had not
performed uutomated routine secllrity assessments of its system environment using the framework
outlined in NIST SP 800·53A. In Novem~r 2009. IRWC performed the security lest and evuluation to
verify compliance with its security policy gljidelines and to evaluate their itffecliveness against
antic/pUled threats. in addition, IBIVC ensured that a comprehensive testing activity was identified to
cover all appropriale security requirements. involved all nece.nmy individuals, and ultimately
provided the information needed 10 support the .~ecllri!y a.ue.wllen! alld authorization (formerly
certification and accredilUtion) process. However. IBWe had not expanded {he process {o include Ihe




                                                  43 


                          SENSITIVE BUT UNCLASSIFIED

                            SENSITIVE BUT UNCLASSIFIED





periodic re-performance ofl'uinerability scans for its systems or a1ltomated rOlltine performance of
such scans on its enterprise network method.

Reco mmend ation 10: "OIG recommends the Chief InfOnllation Officer develop and implement
policies and procedures to perfonn continuous monitoring to include automated routine vulnerability
asscssments for all major systems and General Support Systcms (GSS). The results of such security
assessments should be r,;,viewed and Plans of Action and ~'lil,;,ston,;,s should be d,;,wlop,;,d for the
improvement of the security contro ls of major syst,;,ms and ass as required by National Instit ute of
Standards and Teclmology Spccia[ Publication (NIST SP) 800-53, Rcvision 3, and NIST SP 800-
53A.130:'

Response/Action: Concur. '111e IMD has acquired hard ware and software that will providc the
necessary too ls to establish an eflectiw contin uous monitoring prognun. 1llcse assets will help the
IMD detcct and measure the effectiveness of securit y controls applied within t he ass. All acquired
it em ~ arc in the proce~s of being confi gured and impIL   "lllented. The IMO has already install ed and
configured a monitor in th,;, general ar,;,a of the IMD that automatically scrolls through the status
scrcens of sevcral critiea[ syst.~ms and services in ordcr to kcep them monitored in real-time. A
software application called " Red Line" which wo rks with the enterprise email system has recently beL'll
configured to email IMD staff if an y oftl},;, necessary services go down or ar,;, showing signs of fa ilure.
Additional equipment include an Intrusion Detection System (IDS), Network Admissions Control
(NAC) and a Network Scanner which will all provide automated methods of delecting changes within
our ass and notify the IMD of compromised PC's or those that lIlay show irregular activity. With the
installation of new switches at HQ's and all field offices, thc IMD will gain port level visibility of all
IT asseL~ to infonTI our personnel of any signs of confi guration changes or unau thori zed acti vity. n le
II.,.ID has also recently installed a Solar Winds Orion network perfonnance monitor that has greatl y
enhanced OUf ability to monitor network activity. CISCO works has also been installed which sends
alerts to IMO staO- when t'Crtai n network activity thresholds ha ve been exceeded or show signs of
potentially dangerous activity.

Control Weakness H: Contingency Planning - 18WC's Continuity o!Operations (COOP) does not
comply with NIST SF 800-34.24 IBIVC had not1lpdated its contingency plan and testing policies and
procedures. SpeCifically. the lBWC COOP for its GSS had not been updated to reflect sigmficant
changes to the environment and testing had nol been perji"Hmed.

Recommendatioll t t: " 01(; Tt'Commcnd~ that the International UoundaT)' and Water Commissioll
final ize the Contin uity of Operations site :md conduct testing for (~pcrational e ff~'Ct i\'eness as required
by National Institute of Standards and Technology Spceial Publication 800-34, Revision I."

Response/Action: Concur. '111e IMO is in the process of updating the current COOP policy and
procedure as the infrast ructure at the COOP site in Las Cmccs, N;\-I cont inues to be developed. Both
the Muhiprotocol Label Switching (MP I.S) and Digital Signal 3 ( ])S3) eonneL1.ivity of the COOP site
ha~ been tested and verified. A more adequate AC unit wa~ recently installed to accommodate the
additional equipment that will be installed soon. TIle site is currentl y being uscd as an active offsite
stora ge location of all data backups (HQ's & Field Omce~). In addition an environmental monitoring
system was installed that will immediately alert 11\·11) personnel of any issues with temperature,
moisture or power outages at that location. 'llie VPN appliance required for remote connection to ollr
critical data has been installed and is being confi gured. This will allow for critical mi ssion functions to
continue remotel y in the event of a disaster. The IMO is developing a continuity plan to be reviewed




                                                     44 


                            SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED





by management to detennine what level of COOP the HvID will be required to maintain, taking into
consideration the fimUicial and maintenance requirements needed.


Recommendation 12: "DIG recommends that the International Oolmdary and Water Commission
idcntify an offsite backup for its three field offices in Nogales, Arizona; San Dicgo, California; and
Yuma, Arizona as required by Natio nal Institute of Standards fUld Technology Special Publication 800-
34, Revision \. "

Resvonse/ActlOn Resolved: The IMD has acquired the needed d iem to allow for the lilll ollSite
backup of all field offices. All data Irom these fie ld ollices are now copied on a dail y (diITerential) and
weekly (full) basis to thc HQ SAN and thcn replicated to the offsitc Las Cmccs backup sitc. ·Ille
IMD had nOI been able to conduct ofi"site backups for those three field otrices due to lack of a
compatible backup client with our existing Commvault backup solution and the Netware OS existing
on those scrvLTS.

Recommend ation 13: DIG recommcnds that International Doundary and Water Commission cnsure
that its Infonnation Managctnent Division is involved in thc ovcr.;ight of infonnation tcchnology asse ts
purchases and maintained by the comractor in support of operations at the waste treatment plmlt in Sml
Dicgo, California as required by National Institute of Standards and Technology Special Publication
(NIST SP) S()()-53, Rcvision 3, NIST SP SOO-S2, and Offiec of t>.oIanagement and Budgct Memorandum
M·\ \ ·33.

RemonwlA ctlOn COllcur. The CIO is rcquiring modifications to thc contract in place, to ensure the
liviD is notified in a timely manner, of all planned technology asset purchases, in order to provide the
required lcvel of oversight of new IT purchases and cxisting assets maintained by the contractor. The
rcview process will cncompass re view of all hardware and sofiwarc. An inventory of all cxisting
hardware located at the contractor om i:1cility in San Diego, CA has been completed. IT Specialists
from the ItlU) will conduct a hardware vulnerability assessmcnt of cxisting cquipmcnt at the South
Bay Intcrnational Waste Watcr Treatmcnt Piant (SBIWTP) as soon as possible. 'Illis will result in a
baseline from which to work from in order to bring their equipment into compliance with SP 800-82.
·Ine IMD will create specific PoA&l\oI's to lIct as our tracking mechanism with thc ('OlltractOr in order
to mcasurc their progrcss towards n:solving those issues.

Recommendatioll 14: OIG re<.'Ommends that International Boundary and Water Commission (lBWC)
en~ Uf(:
      that its Infonnation ~hnagcment ])i vi ~io n rcviews and ap provcs softwarc prior to installati on
on mwc assets as required by National Institute of Standards and Technology Special Publication
(NIST SP) SOO-53, Rcvision 3 and Officc of Managcment and Budgct Me morandum M·II-33.

Response/Action: Concur. The CIO is requiri ng modifications to the contract in placc. to ensure the
1M]) is notifi cd in a timely manncr of all planned software purchases in ordcr to provide the required
level of over.;ight of new IT purchases and existing software maintained by the contractor. An
inventory of all non·standard software located wi thin the contractor om systems in San Diego. CA will
be conductcd. IT Specialists from thc 11\01]) will conduct a sofi ware vulncrability assessment at thc
South Bay International Waste Water Tn::atrnent Plant (SBIWTI') a~ soon as possible. -nlis will result
in a baselinc from which to work from in order to bring thcir software into compliancc. ·llie IMD will
creatc specific PoA&M's to act a~ our tmcking mcchanism with the contm L1.or in order to mcasurc
their progress towards res()lving those issues.




                                                    45 


                           SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED




 Reeomm('nd ation 15: OIG recommends that the Chief InfOnllati()ll Oflicer ensure that all fimding for
 infonnat ion technology (IT) security investment and IT components is tracked as required by Office of
 l\Ianagcmcnt and Budgct Memorandum M- II -)).

 Response/Action: Concur. TIle CIO will utilize and expand upon the existing budget account structure
 in place, which tracks all expenscs by Op.:-rating Allowance or Cost Ccnter for all labor and non-labor
 costs to track all IT costs. All fimding and costs lor infonnation technology (11) security investments
 and IT components will be tracked consistent with Oflice of ;"'Ianagement and Budget Memorandum
 M- II -)). In addition, thc iDWC wi ll cnsufC that through an effcctive infonnation security program,
 this agency will effectively protect infonnation and systems as well as maintain the integrity,
 reliability, availability, and confidentiality of our infemll:ltion, consistent wi th Office of Mrumgement
 and Budget Mcmoranduml\'I-OO-07 and M-06-19.

                        (b) (5)
(b) (5)




(b) (5)

(b) (5)




                                                   46 


                           SENSITIVE BUT UNCLASSIFIED

                            SENSITIVE BUT UNCLASSIFIED





 Recommendation 19: OIG recomme nds the Intcmational Boundary and Water Commission (JBWC)
 implement a proecs~ to re view, update, and approve the Infonnation Management Di vision stafT access
 list to the server room at its otrice in EI Paso, Texas, as requ ired by National institute of Standards and
 Tcdmology Special Publication 800-53, Revision 3.

 Response/Action: Concur. TIle CIO lUld IMD recognizes the risks associated with an unmonitored
 entry way into the agcncy's main LAN room and will takc the ncccssary stcps to implemcllt an
 add itional proximity card reader to limit access to only authori led 11\·[]) personnel. In addition to the
 existing, posted access list of authorized personnel outside of the LAN room, a process to rev iew,
 update and approve the access list at least annuall y will he imp!emmled.
(b) (5)




                                                    47 


                            SENSITIVE BUT UNCLASSIFIED

                             SENSITIVE BUT UNCLASSIFIED





}{ecomm cntl>lti o n 2 1' O IG re commends th e Im cm ationa l Bo un dary and Water Commi ssion (I I3 W C )
detem li ne the m os t cost effective protect ive m eas ures fo r fire prewntion and dam age to fil e se rvers as
required by Nat io nal Insti tute of Standards an d Tec hnology Special Publication 800-53, Revisio n 3.

RewonseiAction: Concur.          ' 11]() CIO wo rking w ith th e H" ID w il l iswe specific g uidml ce to the S an

D iego mI d Yuma A rea Operat io ns t..·lanagers, dctai ling acti ons required to rem o vc all unn ecessary
item s out of the server roo m s t o m inim ize or e lim inate th e potential of damage to equipment o r injury
to personnel. "I11e new building to be occupi ed by iB WC personnel in YUlll a, AZ w ill have a se parate
room spccilieall y for I13WC ' s LAN equip m ent only, and w ill not be used for sto ra ge as is eUITi!ntly thi!
case . Reviewed pl:UlS fo r the L.AN roo m in that fa cilit y includes. smoki! and enviro nm ental detceto n; as
we ll as a fire extin g uis her. Ne w building plan'! fo r Ihe San Diego fi eld office ha ve not b~n develo ped
yet, but as an immediate action, we ha ve info m1 cd th e stafr there to remove all d uller ,md ot her
flamma ble mat erial from the LAN room as we ll as requirin g th em to securely bolt down th e serve r
rack to th e floor as soo n as possible . 111e Are a Operat ions Manager w ill al so be requi red to keep th e
LAN roo m sec ured and o nly allow authorized pcn;onncl.




                                                      48 


                             SENSITIVE BUT UNCLASSIFIED

                             SENSITIVE BUT UNCLASSIFIED


                          Major Contributors to this Report

Mr. Jerry Rainwaters, Division Director	   Information Technology Division,
                                           Office of Audits

Ms. Dayo Onafowokan, Auditor-in-Charge	 Information Technology Division,
                                        Office of Audits




                                             49

                             SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

